NO.
IN THE
SUPREME COURT THE UNITED STATES

KRYSTAL MEGAN DELIMA- PETITIONER
vs.
WAL-MART STORES ARKANSAS, LLC. - RESPONDENT(S)
PROOF OF SERVICE
I, KRYSTAL MEGAN DELIMA____________ , do swear or declare that on this date,
f ^2020. as required by Supreme Court Rule 29 I have served the enclosed MOTION
FOR LEAVE TO PROCEED INFORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with firstclass postage prepaid, or by delivery to a third-party commercial carrier for delivery within
3 calendar days.
The names and addresses of those served are as follows:
COUNSEL OF RECORD:
Bryce G. Crawford
Direct: 479-464-5650
[NTC Retained]

Karen P. Freeman
Direct: 479-464-5682
[NTC Retained]

Jacob McElroy
Direct: 479-464-5658
[NTC Retained]

Address: MITCHELL & WILLIAMS
4206 S. J.B. Hunt Drive Suite 200
Rogers, AR 72758
I declare under penalty of perjury that the foregoing is true and correct

, PETITIONER
(Signature)
$fnr <Lo^aU

toft

[U-

'hjzoyo
RECEIVED
OCT 2 2 2020

!s>

NO.
IN THE
SUPREME COURT THE UNITED STATES

KRYSTAL MEGAN DELIMA- PETITIONER
vs.

WAL-MART STORES ARKANSAS, LLC. - RESPONDENT(S)
PROOF OF SERVICE
I. KRYSTAL MEGAN DELIMA
, do swear or declare that on this date,
0)^/113.2020. as required by Supreme Court Rule 291 have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with firstclass postage prepaid, or by delivery to a third-party commercial carrier for delivery within
3 calendar days.
The names and addresses of those served are as follows:
COUNSEL OF RECORD:
Bryce G. Crawford
Direct: 479-464-5650
[NTC Retained]

Karen P. Freeman
Direct: 479-464-5682
[NTC Retained]

Jacob McElroy
Direct: 479-464-5658
[NTC Retained]
■ r»

Address: MITCHELL & WILLIAMS
4206 S. J.B. Hunt Drive Suite 200
Rogers, AR 72758
I declare under penalty of perjury that the foregoing is true and correct

, PETITIONER
(Signature)

RECEIVED
OCT \ - ®

